No. 20–7605

IN THE

SUPREME COURT OF THE UNITED STATES

CODY JAMES MARTINEZ,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENT.
CERTIFICATE OF COMPLIANCE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD

(COUNSEL OF RECORD)
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION
KAITLIN HOLLYWOOD

ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
400 W. CONGRESS, BLDG. S-215
TUCSON, ARIZONA 85701-1367
TELEPHONE: (520) 628-6520
LACEY.GARD@AZAG.GOV
KAITLIN.HOLLYWOOD@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this Brief in Opposition is double spaced,
uses a 12 point proportionately-spaced Century typeface, and contains 4,773 words.
DATED this 30th day of April, 2021.
s/ Lacey Stover Gard

Lacey Stover Gard
(Counsel of Record)
Deputy Solicitor General/Chief of
Capital Litigation
Capital Litigation Section

QTT8KKFW0ERIQ7

2

